WAIVER

Supreme Court of the United States

No. 20-634
Felicia Robinson v. Webster County, Mississippi, et al.
(Petitioner) (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
CO Please enter my appearance as Counsel of Record for all respondents.

t& There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Sheriff Tim Mitchell, Individually

 

& Lama member of the Bar of the Supreme Court of the United States.

Bar of this Court. Should a response be requested,
member.

O Lam not presently a me

the response will be fil
Signature

Date: November 24, 2020

   

 

(Type or print) Name William R. Allen
a

OMs. O Mrs. O Miss

Firm Allen Allen Breeland & Allen

‘Address 214 Justice Street

City & State Brookhaven, Mississippi 2ip 39629

Phone 601-833-4361
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce:

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

EL
